   June 27, 2003




Logistics


Allegations Concerning the
Egyptian Navy Frigate Program
(D-2003-108)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

FMF                   Foreign Military Financing
NAVSEA                Naval Sea Systems Command
PMS 380               Security Assistance Program Office 380
          Office of the Inspector General of the Department of Defense
Report No. D-2003-108                                                         June 27, 2003
   Project No. (D2003LG-0041)

       Allegations Concerning the Egyptian Navy Frigate Program

                                 Executive Summary

Who Should Read This Report and Why? This report should be read by military
assistance oversight and management personnel as well as military assistance recipients.
It explains the importance of detailed performance requirements in administering Foreign
Military Sales cases so that Foreign Military Financing grants are spent appropriately.

Background. Since 1989, Congress has appropriated $1.3 billion annually in
nonrepayable Foreign Military Financing grants to Egypt. The Egyptian government
uses those funds to procure defense articles and services through commercial contracts or
the Foreign Military Sales program. Between 1994 and 1998, the Egyptian government
purchased six frigates from the U.S. Government under the Foreign Military Sales
program using Foreign Military Financing funds. The U.S. Navy hired a contractor to
provide technical support for the transferred ships and tasked contract employees to
perform additional work on the Egyptian presidential yacht in 1999. The audit was
performed in response to a complaint made to the Defense Hotline. The complainant
alleged mismanagement of the Foreign Military Financing funds used for the Egyptian
Navy Frigate program. Specifically, the complainant alleged that funds were
inappropriately spent to (1) hire retired Egyptian Navy officers, (2) rebuild personal
office space, (3) pay for trips to the United States, and (4) work on the Egyptian
presidential yacht. See Appendix B for a discussion of the Defense Hotline allegations
and our conclusions.

Results. As stated in the allegations, we determined that Naval Sea Systems Command
approved the use of Foreign Military Financing funds to hire retired Egyptian Navy
officers, to rebuild office space, and for trips to the United States; however, those actions
were not inappropriate. We determined that Naval Sea Systems Command also approved
the use of Foreign Military Financing funds to replace sets of boiler tubes on the
Egyptian presidential yacht; although questionable, we found no criteria to support that
the expense was prohibited by either the law or the contract. Naval Sea Systems
Command management controls have improved since the time of this action and thus
appear to be adequate.

Management Comments. We provided a draft of this report on May 15, 2003. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                             i

Background                                   1

Objectives                                   3

Finding
     Egyptian Navy Frigate Program Costs     4

Appendixes
     A. Scope and Methodology                 9
         Management Control Program Review    9
         Prior Coverage                      10
     B. Summary of Allegations               11
     C. Report Distribution                  13
Background
           Hotline Allegations. The audit was performed in response to a complaint made
           to the Defense Hotline that Foreign Military Financing (FMF) funds were
           inappropriately used on the Egyptian Navy Frigate program. See Appendix B for
           a complete discussion of the four allegations.

           Foreign Military Financing Program. FMF is a program to carry out the
           provisions of Public Law 90-629, “Arms Export Control Act” (the Act), and
           section 23, “Credit Sales.” The FMF is a program of nonrepayable grants and of
           repayable loans and credits to enable U.S. allies to improve their defense
           capabilities through the acquisition of defense articles and services. Since 1989,
           Congress has appropriated $1.3 billion every year in nonrepayable FMF grants to
           Egypt, which Egypt uses to procure defense articles and services through direct
           commercial contracts with U.S. contractors or through the Foreign Military Sales
           program. The Foreign Military Sales program includes government-to-
           government sales of defense articles and services from DoD stock or through new
           procurements under DoD-managed contracts.

           Grant Agreement with Egypt. Since August 1989, the U.S. Government and
           the government of Egypt have annually signed a grant agreement for the use of
           FMF funds. The agreement allows Egypt to enter into purchase contracts with
           Military Departments, DoD agencies, and various U.S. commercial suppliers for
           the purchase of defense articles, defense services, and design and construction
           services of U.S. origin using FMF funds. Additionally, the agreement requires
           Egypt to request approval to use FMF funds for the purchase of defense items
           pursuant with policies defined in DoD Manual 5105.38M, “Security Assistance
           Management Manual.” The Security Assistance Management Manual has been
           updated since 1989; the most current version is February 5, 2002.

           Naval Organizational Structure. Under the direction of the Assistant Secretary
           of the Navy for Research, Development, and Acquisition, the Navy International
           Programs Office has oversight responsibilities for all international Navy-related
           programs. Naval Sea Systems Command1 (NAVSEA) Security Assistance
           Program Office 380 (PMS 380) serves as the liaison between NAVSEA and the
           international community. PMS 380 supports more than 80 navies worldwide
           including more than 400 ships and their installed systems and associated
           weapons. PMS 380 also administers and approves how FMF funds are spent for
           the Egyptian Navy Frigate follow-on technical support2 contract.
           Egyptian Navy Frigate Program. From 1994 through 1998, the Egyptian
           government purchased two Knox-class and three Perry-class frigates3 for a total
           of $165.6 million from the U.S. Government under the Foreign Military Sales
1
    NAVSEA builds, engineers, and supports U.S. Navy ships and combat systems.
2
     Follow-on technical support is the life-cycle support of every ship and shipboard system that is sold or
    leased to foreign governments. It includes materials, technical assistance, and sustainment of equipment
    and systems no longer supported by U. S. Navy infrastructure.
3
    The Knox-class frigates were built in the 1970s and are steam boiler powered. The Perry-class frigates
    were built in the 1980s and are diesel turbine driven.



                                                       1
           program. Additionally, in September 1996, the U.S. Government gave one
           additional Perry-class frigate to the Egyptian government through a grant. The
           Egyptian Navy has used those frigates to patrol the Mediterranean Sea, protect the
           Suez Canal, and participate in combined exercises with the U.S. Navy. To
           support and maintain the six frigates, the Egyptian Navy purchased follow-on
           technical support. FMF funds financed five Foreign Military Sales cases.4 In
           February 2003, a NAVSEA official stated that over $279 million had been
           disbursed for follow-on technical support provided by BAV5 (Contractor) as well
           as materials, supplies, and personnel provided by the U.S. Navy under those five
           cases.

           Follow-on Technical Support Contract. In 1995, NAVSEA awarded
           N00140-95-D-F021 (the Contract) to provide follow-on technical support for the
           former U.S. Navy ships transferred under the Foreign Military Sales program
           worldwide. The Egyptian Navy provides the Contractor with access to an
           Egyptian naval base to conduct the major overhaul and general repair work.
           NAVSEA writes separate delivery orders to cover requirements for each specific
           foreign country that receives support. As of February 2003, NAVSEA had
           written 39 delivery orders ($132 million) to acquire follow-on technical support
           for the Egyptian Navy Frigate program. NAVSEA used work orders to further
           define work requirements within each delivery order.

           Egyptian Presidential Yacht. The Egyptian presidential yacht (Presidential
           Yacht) was commissioned in England in 1865 as the royal yacht for the Khedive
           Ismail of Egypt. In 1879, the ship ferried Khedive Ismail into exile as it would
           King Farouk6 in 1952. The Presidential Yacht is officially still in service in the
           Egyptian Navy.




4
    A Foreign Military Sales case is an agreement between the United States and a foreign government,
    which lists the items or services, estimated costs, and the terms and conditions of sale.
5
    BAV is a division of VSE Corporation in partnership with Booz Allen & Hamilton Inc. to manage the
    Egyptian Navy Frigate follow-on technical support contract.
6
    The Khedive Ismail ruled Egypt from 1867 to 1879 and King Farouk I ruled Egypt between 1936 and
    1952.


                                                      2
    Navy officials who saw the ship identified it as a museum piece and a pleasure
    boat of state used mainly for Presidential parties. A recent photograph of the ship
    follows.




                            The Egyptian Presidential Yacht


Objectives
    Our objective was to determine the validity of the allegations of improprieties in
    the use of FMF funds. Specifically, we reviewed the Egyptian Navy Frigate
    program to determine whether FMF funds were properly used as they relate to the
    allegations. We also reviewed the management control program as it relates to
    the overall audit objective. Refer to Appendix A for a discussion of the scope and
    methodology and prior coverage related to the objectives.




                                         3
            Egyptian Navy Frigate Program Costs
            In 1999, NAVSEA authorized the use of at least $645,480 in FMF funds
            to replace sets of boiler tubes on the Egyptian presidential yacht.
            NAVSEA justified that expense as an opportunity to provide on-the-job
            training to three Egyptian workers. While those actions appear to fall
            outside the overall intent of FMF and the Contract, they were not directly
            prohibited. Since completing work on the Egyptian presidential yacht,
            NAVSEA has tightened program controls that should lessen the
            probability of incurring similar charges for work of a questionable nature.


Egyptian Presidential Yacht
     In 1999, NAVSEA authorized the use of at least $645,480 in FMF funds to
     replace boiler tubes on the Presidential Yacht. NAVSEA justified the expense as
     an opportunity to provide on-the-job training to three Egyptian workers.

     Identified Costs. Table 1 shows the identified costs associated with replacing the
     sets of boiler tubes on the Presidential Yacht and related costs, between
     March 1999 and December 1999. That amount may be understated because
     NAVSEA included the work on the Presidential Yacht with other non-specific
     expenses. Work descriptions were often ambiguous, and additional work may
     have been completed outside our review period.


               Table 1. Egyptian Presidential Yacht Identified Costs
                          (March through December 1999)

                    Description                         Identified Costs
        Cleaning/ Prep work for the
         Presidential Yacht                                   $5,183
        Material and Transportation                         248,541

        Direct Labor                                        353,558

         Subtotal                                           607,282

        General Administrative Rate*
         (6.29 percent)                                       38,198

            Total                                          $645,480

        *The general administrative rate is charged by the prime Contractor for
         managing the contract.




                                         4
          Work Performed. From March through December 1999, the Contractor used
          $645,480 to provide services and materials to replace five sets of boiler tubes on
          the Presidential Yacht. In April 1999 and May 1999, after the Contractor
          inspected the Presidential Yacht, Contractor personnel removed asbestos and
          cleaned the fireroom. Also in May 1999, the Contractor shipped insulation and
          brick to Egypt from the United States. In August 1999, the Contractor also
          shipped five sets of boiler tubes from the United States to Egypt. Six Contractor
          boiler technicians worked on the Presidential Yacht and charged over 8,100 hours
          between May 1999 and December 1999. A Contractor representative and a
          NAVSEA official stated that PMS 380 personnel orally directed the Contractor to
          repair the Presidential Yacht; therefore, the Contractor charged all time and
          materials spent for training directly to delivery order 2297 for overhaul work.
          On the Job Training. A NAVSEA PMS 380 official identified three Egyptian
          personnel that received on-the-job welder training provided by the six Contractor
          boiler technicians working on the Presidential Yacht. NAVSEA PMS 380
          officials approved this work and justified the work as on-the-job training. The
          official stated that the Egyptian and Contractor personnel used their time
          effectively for training. PMS 380 personnel stated that using the Presidential
          Yacht as an alternative training site provided benefits to both the trained
          personnel and Egyptian-U.S. relationships. A PMS 380 representative further
          explained that the Presidential Yacht was a good training site because the size of
          the boiler is more suitable for training than the larger frigate boilers.
          Furthermore, he stated that the former U.S. frigates were unavailable for use as a
          training site within the needed timeframe. However, PMS 380 officials could not
          provide documentation that training was required or completed or that the U.S.
          frigates were unavailable for boiler work because those records were maintained
          by the Egyptian Navy.


Military Assistance
          While work on the Presidential Yacht appears to fall outside the overall intent of
          FMF and the Contract, those actions are not directly prohibited.

          Use of Foreign Military Financing Funds. The Act authorizes the use of FMF
          funds by specified foreign countries, and Egypt is an eligible FMF grant recipient.
          The purpose of the Act is to procure U.S. defense articles or defense services to
          foster effective and mutually beneficial defense relationships. The Act further
          states, “Defense articles and defense services shall be sold or leased . . . solely for
          internal security, for legitimate self-defense.” Training and related support to
          military and civilian defense personnel of a friendly country is included as a
          legitimate defense service in the Act. Training includes:

                       [F]ormal or informal instruction of foreign students in the United States
                       or overseas by officers or employees of the United States, contract
                       technicians, or contractors (including instruction at civilian


7
    PMS 380 uses delivery orders to document commitments between the contractor and the Government and
    to obligate funds to cover the Government cost and allow the contractor to get paid.



                                                      5
                       institutions), or by correspondence courses, technical, educational, or
                       information publications and media of all kinds, training aid,
                       orientation, training exercise, and military advice to foreign military
                       units and forces.

           Contract. The Contract specifically provides support for:

                       [F]oreign recipients of U.S. ships bought, leased or otherwise
                       transferred through FMS [Foreign Military Sales] program, the means
                       to economically support these ships for the remainder of their Life
                       Cycles by U.S. contractors. The services for this program will include
                       design, configuration management, field engineering, maintenance
                       planning, maintenance, spare parts support, training, casualty and depot
                       level repairs.

           The purpose of the Contract is to provide life-cycle support for former U.S. Navy
           ships. The Contract includes training as part of the life-cycle support for the
           transferred ships. Training does not have to be performed solely on former U.S.
           ships. For example, to support the Egyptian frigates, training is regularly
           conducted in a classroom setting. Classroom training typically has clear
           objectives and is an effective way to train several personnel at one time.

           According to a PMS 380 official, the Presidential Yacht was used as an
           alternative training site for three Egyptian personnel who will provide life-cycle
           support for the former U.S. frigates. In our opinion, this broadens the scope of the
           Contract beyond what was intended; however, neither the Act nor the Contract
           directly prohibits this type of work.

           Delivery Order 229. The Contractor charged delivery order 229 to fund the
           repairs on the Presidential Yacht; however, the delivery order did not specifically
           task the Contractor to perform the repairs. The statement of work in the delivery
           order directed the Contractor to perform only general repair and support duties.
           Delivery order 229 states that:
                       Services to be provided under this delivery order shall consist of
                       actions necessary to repair, maintain, overhaul, and install shipboard
                       systems and equipment; industrial and logistics upgrade services;
                       training; and equipment procurement services for material and repair
                       parts.

           Work Order. Similar to the delivery orders, the work orders8 that were used to
           fund the repairs to the Presidential Yacht provided only vague work descriptions
           and the estimated work hours. For example, one typical work order states:
                       The contractor shall provide a boiler repair team consisting of sixteen
                       (16) permanent men to overhaul boilers.




8
    PMS 380 uses work orders to document specific requirements or evolving commitments of the delivery
    order.



                                                     6
    As a consequence, almost any job completed with FMF funds or under the
    Contract could have been classified as “training.”


Tightened Program Controls
    NAVSEA has subsequently tightened program controls, which should help lessen
    the probability of similar charges for work of a questionable nature.

    Program History. In the early years of the contract, NAVSEA made on-site
    Contractor personnel available to accommodate the requirements of the Egyptian
    customer. NAVSEA personnel stated that the Contract scope was intentionally
    written in broad terms to accommodate the various requirements. At the time,
    support operations were in transition from a predominantly Russian-developed
    naval facility to one that would support U.S. built ships.

    Improved Controls. NAVSEA personnel stated that as the Egyptian Navy
    Frigate program matured, NAVSEA and Egyptian Navy representatives increased
    management control over the program through additional periodic on-site visits
    and more specific work requirements for the Contractor. In December 2000, to
    improve oversight, NAVSEA and the Contractor increased the number and
    frequency of on-site visits from once a year to about five times per year. The site
    visits increased management awareness of current operations and future projects.
    Also in December 2000, NAVSEA and the Egyptian Navy changed their
    procedures in order to more fully document specific requirements for the
    Contractor through the use of work packages. As a result of those on-site visits,
    Egyptian Navy personnel, with technical input from the Contractor and NAVSEA
    approval, developed detailed work packages for work to be performed by the
    Contractor. Work packages define work requirements in very specific terms, for
    a specific time period, and include a delivery schedule and list of personnel and
    material requirements. For example, a work package for a ship overhaul may
    contain specific references to part numbers (vent fan motor 1-129-1); items to
    repair (repair No. 3 and No. 4 fire pump motors); and locations (replace feed
    water valves on No. 2 distilling plant). Formerly, the delivery order and work
    orders would include very broad and non-specific work requirements.

    Achievements. NAVSEA has taken actions to define performance requirements
    in delivery orders for the Egyptian Navy Frigate program. We reviewed the
    statements of work on 39 delivery orders supporting work on the Egyptian Navy
    Frigate Program. Of the 32 delivery orders signed prior to December 2000,
    14 contained vague work descriptions and identified the work requirement in
    estimated work hours. However, after December 2000, all seven delivery orders
    adequately described the Contractor duties in the statement of work, and four of
    those seven delivery orders required the Contractor to perform in accordance with
    approved work packages. Those work packages provided significantly more
    detailed work descriptions than the earlier delivery orders.




                                         7
Conclusion
    The work performed on the Presidential Yacht appears questionable. The
    Presidential Yacht is a historical ship that is not likely to be used for a legitimate
    defensive purpose nor to enhance Egyptian internal security. However, we could
    find no legal or contractual impediment to the use of FMF funds for repairs made
    on the Presidential Yacht, particularly because NAVSEA classified it as an
    alternative training site. NAVSEA has changed procedures since completing
    work on the Presidential Yacht, which should reduce the likelihood of similar
    questionable charges. Therefore, we are not making any recommendations.




                                          8
Appendix A. Scope and Methodology
    We performed this audit from December 2002 through April 2003 in accordance
    with generally accepted government auditing standards. Our scope was limited
    because we did not travel to the work site and were unable to view training
    documentation, Egyptian Navy travel vouchers, or the actual work completed.

    We reviewed DoD guidance that governs and administers security assistance. We
    analyzed Public Law 87–195, “The Foreign Assistance Act of 1961,”
    September 4, 1961; Public Law 90–629, “The Arms Export Control Act,”
    October 22, 1968; Executive Order 11958, “Administration of Arms Export
    Controls,” January 18, 1977; DoD Manual 5105.38, “Security Assistance
    Management Manual (SAMM),” February 5, 2002; DoD Directive 5010.38
    “Management Control Program,” August 26, 1996; DoD Instruction 5010.40,
    “Management Control Program Procedures,” August 28, 1996; NAVSEA
    Instruction 5200.13B, “Management Control Program,” May 5, 2000; and Navy
    Office of Technology Transfer and Security Assistance Internal Policy
    Directive 89-27, “Management Control Program,” December 14, 1989.

    We reviewed overall policies, procedures, and documentation related to the
    Egyptian Navy Frigate program as supported by contract N00140-95-D-F021.
    We also reviewed 5 Foreign Military Sales cases and 39 associated delivery
    orders. Additionally, we reviewed Contractors monthly status reports covering the
    period January 1996 through December 2002. From the review of delivery orders
    and Contractor monthly status reports, we identified and reviewed questionable
    items in on-site expense invoices covering the periods November 1998 through
    November 2000 and December 2001 through September 2002. Also, we
    interviewed NAVSEA, Navy International Programs Office, Contractor, and
    subcontractor personnel.

    Use of Computer Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD Contract Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of NAVSEA management controls over Foreign Military Sales.
    Specifically, we reviewed the implementation of U.S. laws and DoD policies as


                                        9
      they relate to the Egyptian Navy Frigate program. Because we did not identify a
      material weakness, we did not assess management’s self-evaluation.

      Adequacy of Management Controls. NAVSEA management controls were
      adequate; we identified no material management control weaknesses.

Prior Coverage
      During the last 5 years, the General Accounting Office (GAO) and NAVSEA
      have issued three reports discussing Foreign Military Sales. Unrestricted GAO
      reports can be accessed over the Internet at http://www.gao.gov.

GAO
      GAO Report No. GAO-00-208, “Foreign Military Sales: Changes Needed to
      Correct Weaknesses in End-Use Monitoring Program,” August 24, 2000

      GAO Report No. GAO-99-213, “Foreign Military Sales: Navy’s Accounting for
      Sales to Foreign Customers Needs Improvement,” August 24, 1999

NAVSEA
      NAVSEA Office of Inspector General, “Management Control Program Audit of
      NAVSEA Foreign Military Sale Program Timekeeping Procedures,” March 2002




                                         10
Appendix B. Summary of Allegations
   The audit was conducted in response to allegations made to the Defense Hotline.
   The following is a summary of the allegations not discussed in the body of the
   report and the specific results of each allegation.

   Allegation No. 1: Foreign Military Financing funds were spent to hire retired
   Egyptian Navy officers.

   Audit Results: We determined that Naval Sea Systems Command approved the
   use of FMF funds to hire retired Egyptian Navy officers. However, the practice
   of hiring local nationals is not improper as long as the contractor does not exceed
   the 50 percent foreign content threshold. The Security Assistance Management
   Manual, Section 90210, states that funds made available under the Arms Export
   Control Act can be “offshore procurement” if the costs from foreign origin are
   less than one-half of the dollar value of the contract or the project, after
   subtracting “buy American” items excluded in the Financial Acquisition
   Regulation and the Defense Financial Acquisition Regulation Supplement. We
   reviewed 12 current independent consultant agreements between the Contractor
   and Egyptian nationals who perform work under the Contract. Eleven of the
   consulting agreements were with retired Egyptian Navy personnel who performed
   engineering, liaison, and logistics support; the remaining consultant served as a
   senior engineer. The total cost for all consulting agreements, an estimated
   $270,000 a year, was well below the 50 percent threshold identified in the
   Security Assistance Management Manual. Funds were legitimately spent to hire
   retired Egyptian naval officers and, thus, resulted in no adverse effect.

   Allegation No. 2: Foreign Military Financing funds were spent to rebuild
   personal office space.

   Audit Results: We determined that Naval Sea Systems Command approved the
   use of FMF funds to rebuild office space. However, work performed was within
   the scope of FMF requirements. To identify expenditures potentially related to
   construction of personal office space, we reviewed 39 delivery orders
   (January 1995 through January 2003) and Contractor’s monthly status reports
   (January 1996 through December 2002) for the follow-on technical support
   program. This lead to a review of all of the on-site expense invoices from
   November 1998 through November 2000 and December 2001 through September
   2002. The expenses we identified were modest in nature and appeared legitimate.
   For example, the Contractor purchased an office trailer, which included furniture
   and an air conditioning unit, for $6,879; lighting fixtures for office space for $27;
   and a toilet seat for $15. Additionally, the Contractor remodeled an Egyptian
   “villa” to serve as office space to support administrative requirements. We were
   unable to identify the cost of remodeling because NAVSEA and Contractor
   personnel could not recall when the remodeling took place but stated that the
   costs, which mainly consisted of office furniture, were not substantial in nature.
   NAVSEA and Contractor personnel explained that the villa, or Egyptian office
   building, is vital to the Contractor’s administrative and planning duties because
   access to the Egyptian naval facility was limited to specific hours of operation.



                                        11
Funds spent on rebuilding or remodeling office space were modest and generated
no adverse effects.

Allegation No. 3: Foreign Military Financing funds were used to pay for
Egyptians to travel to the United States.

Audit Results: We determined that Naval Sea Systems Command approved the
use of FMF funds for trips to the United States. However, we could only identify
funds spent to reimburse Egyptians traveling to the United States for training.
The Foreign Assistance Act, part II, chapter 5, specifically authorizes “attendance
at military educational and training facilities in the United States” to be within the
scope of FMF requirements. The documentation revealed that Egyptians traveled
to the United States with FMF funds for training purposes. We also identified
35 Egyptian personnel who visited the United States from 1996 through 2002 to
attend program management reviews on the Egyptian Navy Frigate program. The
travel for Egyptian personnel attending program management reviews cannot be
reimbursed with FMF funds. To identify if the 35 Egyptian personnel used FMF
funds to attend the program management reviews, we reviewed the following:

       •   Contractor travel records for charges claimed in 1999, 2000, and 2002;

       •   Foreign Military Sales case files associated with follow-on technical
           support for the Egyptian frigates; and

       •   Defense Finance and Accounting Service travel disbursement records
           related to the Foreign Military Sales cases.

We found no evidence that U.S. Government funds were used to reimburse the
travel expenses associated with those program management reviews.

Allegation No. 4. Foreign Military Financing funds were used to pay for repairs
to the Presidential Yacht.

Audit Results: We determined that Naval Sea Systems Command approved the
use of at least $645,480 in FMF funds for work on the Presidential Yacht. The
work on the Presidential Yacht appears to fall outside the intent of FMF grant
funds; however, the work was not directly prohibited when classified as on-the-
job training costs. See the Finding section for a discussion of the allegation.




                                     12
 Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense (Policy)
  Assistant Secretary of Defense for International Security Affairs

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director, Navy International Programs Office
Commander, Naval Sea Systems Command

Department of the Air Force
Auditor General, Department of the Air Force

Unified Commands
Commander, U.S. Central Command

Other Defense Organizations
Director, Defense Security Cooperation Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                           13
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        14
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Evelyn R. Klemstine
George Cherry
Timothy A. Cole
Troy R. Zigler
Robert E. Martens
Susann L. Cobb
